XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-7742
Facsimile: (916) 324-2960
E-Mail: Brian.Means@doj.ca.gov

October 15, 2020
Via Electronic Filing System
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Rodney Berryman v. Robert Wong, No. 20-5764
Request for Extension of Time

Dear Harris:
The petition for writ of certiorari in this case was filed September 9, 2020. The response
is currently due on October 23, 2020. Pursuant to Rule 30.4, Respondent respectfully requests
that the time for filing the response be extended by 31 days, to and including November 23,
2020. I have made good progress on drafting the response, but need additional time to complete
it and allow time for review, revisions, and filing. An extension would better enable preparation
of a response that Respondent believes would be most helpful to the Court. Petitioner is a
prisoner proceeding pro se, and respondent is unable to obtain his position on this request.
Sincerely,
/s/ Brian R. Means
BRIAN R. MEANS
Deputy Attorney General
For

BRM:ts
cc: Rodney Berryman Sr., CDC #E03500
San Quentin Prison, San Quentin, CA 94974
SA2020303611
34495099.docx

XAVIER BECERRA
Attorney General

